OFFICE OF INSPECTOR GENERAL
              Audit Report
Audit of Internal Controls over Medicare Premium
Transfers Between the Railroad Retirement Board
 and Centers for Medicare and Medicaid Services


               Report No. 10-09
                May 21, 2010




  RAILROAD RETIREMENT BOARD
                                          TABLE OF CONTENTS

INTRODUCTION .................................................................................................. 1
   Background ....................................................................................................... 1
   Objectives ......................................................................................................... 2
   Scope ................................................................................................................ 2
   Methodology ...................................................................................................... 2

RESULTS OF AUDIT ........................................................................................... 4
   Completeness of Transfers ............................................................................... 4
      Recommendations ......................................................................................... 5
      Management’s Response .............................................................................. 5
   Accuracy of Funds Transfer Requests is Not Ensured ...................................... 5
      Recommendations ......................................................................................... 6
      Management’s Response .............................................................................. 6
   Timeliness of Transfer Requests Needs Improvement...................................... 6
      Recommendation........................................................................................... 8
      Management’s Response .............................................................................. 8
   Segregation of Duties ........................................................................................ 8
      Recommendation........................................................................................... 8
   Unauthorized Individuals Prepare and Certify Funds Transfer Requests .......... 9
      Recommendation........................................................................................... 9
      Management’s Response .............................................................................. 9
   Corrective Actions for Excess Medicare Premiums Payments and Medicare
   Premium Refunds............................................................................................ 10
      Recommendations ....................................................................................... 11
      Management’s Response ............................................................................ 11
   Documented Internal Controls ......................................................................... 12
      Recommendations ....................................................................................... 13
      Management’s Response ............................................................................ 13

ATTACHMENT 1 ................................................................................................ 14
   Office of Programs’ Management Response ................................................... 14




                                                               i
                                 INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of
the internal controls for Medicare premium transfers between the Railroad
Retirement Board (RRB) and the Centers for Medicare and Medicaid Services
(CMS).

Background

The RRB is an independent agency in the executive branch of the Federal
government. The RRB administers retirement and survivor benefit programs for
railroad workers and their families that provide income protection for aged and
disabled annuitants. RRB annuitants receive monthly benefit payments and the
RRB has authority to determine which RRB annuitants meet eligibility
requirements for Medicare. Medicare premium amounts are established by law
and the RRB withholds Medicare Part B premiums from the annuitant’s monthly
benefit payment. The RRB periodically transfers the premiums that were
withheld to CMS. 1 Likewise, CMS reimburses the RRB when retroactive
Medicare premium adjustments occur and when excessive premiums may have
been transferred. The RRB Medicare premium withholdings for fiscal years 2009
and 2008 totaled $488 million and $490 million, respectively.

The Office of Programs administers various aspects of the Medicare program.
Within the Office of Programs, the Programs Support Division is responsible for
requesting Medicare premium transfers between the Railroad Retirement Act
(RRA) trust funds and the Medicare account. The RRB uses Standard Form
1081, Voucher and Schedule of Withdrawals and Credits, to record the funds
transfer requests (transfer requests). The Bureau of Fiscal Operations (BFO) is
responsible for executing the transfer of funds based on documentation provided
by the Office of Programs.

The RRB established a process which requires the periodic test of internal
controls by the organizational units responsible for day-to-day operations. During
a test of internal controls in December 2008, the Office of Programs was unable
ensure that the RRB was reimbursed by CMS for retroactive Medicare premium
adjustments for funds previously issued from RRA trust funds. The Office of
Programs found that the RRB had not requested reimbursement from CMS for
these refunds for many years. The Office of Programs found that excessive
funds were transferred to CMS due to overlapping Medicare premium totals
being reported from two separate sources. As a result of these inaccurate or
missing premium transfers, the RRB received approximately $24 million for the
period June 1995 through July 2009. The Office of Programs developed new
procedures and implemented new controls to address these issues.

1
     42 USC § 1395s (b) 


                                         1
This audit was undertaken as a result of the internal control issues identified by
the Office of Programs during their review of Medicare premium transfers.
According to the “Standards of Internal Control in the Federal Government”,
internal control is an integral component of an organization’s management that
provides reasonable assurance that the following objectives are being achieved:
effectiveness and efficiency of operations, reliability of financial reporting, and
compliance with applicable laws and regulations. Internal control is a major part
of managing an organization. It comprises plans, methods, and procedures used
to meet missions, goals, objectives and, in doing so, supports performance-
based management. Internal control also serves as the first line of defense in
safeguarding assets and preventing and detecting errors and fraud. 2 This audit
addresses the RRB’s strategic objective to ensure the effectiveness and
efficiency of operations.

Objectives

The audit objectives were to:

       •   determine if internal controls were properly designed and placed in
           operation to ensure the accuracy, timeliness and completeness of
           Medicare premium fund transfers between the RRB and CMS; and
       •   determine the completeness of the controls used to identify and correct
           the Medicare refunds and excessive premium payments.

Scope

Our scope was limited to the internal controls for:

       •   Medicare premium transfers for the period October 2009 through
           December 2009; and
       •   the process used by the Office of Programs during calendar year 2009 for
           Medicare refunds from CMS to the RRB and excessive premium funds
           transfers from the RRB to CMS.

Methodology

To accomplish the audit objectives, we:

       •   interviewed RRB staff;
       •   reviewed applicable laws, regulations and agency procedures,
       •   gained an understanding of internal controls,
       •   tested internal controls for proper design and placement in operation,


2
     “Standards for Internal Control in the Federal Government,” GAO/AIMD 00‐21.3.1 (11/99) page 4. 


                                                      2
   •   reviewed supporting documentation for Medicare premium fund transfers
       and
   •   tested internal controls for proper design and placement in operation,
       including the review of the accuracy, timeliness and completeness of
       transfers made between the RRB and CMS.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Fieldwork was
conducted from December 2009 through April 2010 at RRB headquarters in
Chicago, Illinois.




                                        3
                                     RESULTS OF AUDIT

Our review determined that the Office of Programs’ internal controls over
Medicare premium transfers:

    •   are not properly designed or placed in operation to ensure the accuracy,
        timeliness and completeness of Medicare premium fund transfers between
        the RRB and CMS, and
    •   were not properly designed to ensure the completeness of the
        identification and correction of the Medicare refunds and the excessive
        premium payments.

The details of our findings and recommendations for corrective action follow.

Completeness of Transfers

The Office of Programs has no assurance that all of their transfer request forms
are received and executed by BFO.

A variety of control activities are used in information processing. Examples
include edit checks of data entered, accounting for transactions in numerical
sequences, comparing file totals with control accounts, and controlling access to
data, files, and programs. Control activities help to ensure that all transactions
are completely and accurately recorded. 3

Throughout the three-month test period 235 separate transfer requests were
prepared by the Programs Support Division. The Programs Support Division
delivers the transfer requests to a BFO incoming tray, from which BFO staff
retrieves the documents, executes the transfer requests and posts the
transactions in the RRB’s financial records. BFO obtains and documents
confirmation of the transaction in their records. However, the Programs Support
Division does not obtain a copy of the confirmation because it is not required by
agency procedures. We also found that there is no sequential numbering system
for the individual transfer requests and batch totals are not used during
processing.

Our tests of transactions disclosed one transfer request that had been prepared
by the Programs Support Division but the actual funds transfer had not been
executed by BFO staff. The Office of Programs was unaware of this unexecuted
transfer because they do not secure confirmations for these transactions. Other
unexecuted funds transfers could exist.

3
  “Standards for Internal Control in the Federal Government,” GAO/AIMD 00‐21.3.1 (11/99) pages 13, 14 
and 15. 


                                                  4
Recommendations:

We recommend that the Office of Programs:

   1. develop and implement controls to ensure the completeness of the
      transfer requests delivered to BFO, and
   2. strengthen internal controls to ensure that funds transfer confirmations are
      reconciled to the transfer requests.

Management’s Response

The Office of Programs concurs with the recommendations and has agreed to
develop and implement the recommended controls. The Office of Programs has
also agreed to strengthen controls to ensure that funds transfer confirmations are
reconciled to the transfer requests. The full text of management’s response is
provided as Attachment 1.


Accuracy of Funds Transfer Requests is Not Ensured

Internal controls do not ensure the accuracy of the transfer requests or provide
certainty that the transfer requests are always prepared.

Documented agency procedure provides specific instructions for the preparation
of the transfer request forms, such as the basis for the creation of the voucher
number and computation of the amounts to be recorded on the request forms.

Our tests disclosed many inaccuracies in the funds transfer requests which
totaled more than $3.2 million from the period October 2009 through December
2009. For example, we found that:

   •   agency procedure is not always followed and errors are not always
       detected during the review and approval process,
   •   agency procedures does not always require a complete set of supporting
       documentation to be maintained for, and attached to, each transfer
       request,
   •   some essential source documents are not always used when required,
   •   some transfer requests could not be validated because the primary
       support for the transfer requests was not maintained in its entirety and
       could not be reproduced,
   •   many of the transfer requests contained an inaccurate manually created
       voucher number, which impacts the ability to trace a recorded funds
       transfer to the originating transfer request, and


                                        5
   •   one transfer request submitted to and processed by BFO did not contain
       the signature of the certifying officer.

Additional inaccuracies could exist as a result of these internal control
deficiencies.

Recommendations:

We recommend that the Office of Programs:

   3. strengthen internal controls to ensure that agency procedure is followed
      for the preparation of the funds transfer request forms,
   4. revise agency procedures to require that source documents be attached
      and maintained as supporting documentation for the funds transfer
      requests,
   5. strengthen the review process to ensure the accuracy of the preparation of
      the funds transfer request forms,
   6. lengthen the required retention period for essential supporting reports, and
   7. take corrective action for the noted error cases.

Management’s Response

The Office of Programs concurs with Recommendations Nos. 3, 5, 6, and 7.
Specifically, the Office of Programs has agreed to:

   •   strengthen controls to ensure that agency procedure is followed in the
       preparation of the funds transfer request forms,
   •   strengthen the review process to better ensure the accuracy of funds
       transfer requests,
   •   review applicable records retention schedules and determine what
       additional action may be necessary to ensure that essential supporting
       records are retained for an appropriate period; and
   •   finalize the correction process.

The Office of Programs has also agreed with Recommendation No. 4 and plans
to revise procedures to require that source documents be maintained to support
certification of the transfer request. The full text of management’s response is
provided as Attachment 1.


Timeliness of Transfer Requests Needs Improvement

Medicare premium transfer requests are generally not processed within
acceptable timeframes. In the absence of agency timeliness standards, we

                                          6
considered a transfer request timely, based on the type of transaction, if it was
prepared within the following time standards:

Transfer Requests Resulting from the Automated Medicare Adjustment Program

This type of refund is due from CMS after a refund check has been issued to the
annuitant from the RRB on the first day of the month. We considered a refund
timely if the transfer request was prepared by the second business day of the
month. We found that 62% of these transfer requests were not prepared within
this time standard. The transfer requests were prepared as much as two weeks
after the RRB issued the refund check.

Transfer Requests Resulting from Manually Issued Refunds and Returned
Payments

These types of Medicare premium transfers result from manually issued refunds
and returned payments. Since these transactions had already occurred, we
applied a one-day standard for the transfer requests prepared based on system
generated reports. We found 17% of the transfer requests were not prepared
within this time standard. The transfer requests related to manually issued
refunds were processed as much as four days late and the returned payment
items were processed as much as two months late.

Transfer Requests Resulting from Non-Entitlement

Other transfer requests are based on the receipt of an additional transfer request
form that is associated with a particular annuitant. These additional transfer
request forms are manually prepared by and received from the Survivor Benefits
Division within the Office of Programs. We considered these manually prepared
requests timely if they were prepared within five business days. We found that
59% of these transfer requests were prepared as much as 60 days after
entitlement ended.

Transactions should be promptly recorded to maintain their relevance and value
to management in controlling operations and making decisions. This applies to
the entire process or life cycle of a transaction or event from the initiation and
authorization through its final classification in summary records. 4

Delays could result in all of the necessary transfer requests not being prepared,
which could impact agency trust funds. Delays could also impact the timeliness
of recording financial transactions.




4
     “Standards for Internal Control in the Federal Government,” GAO/AIMD‐00‐21.3.1 (11/99) page 15. 


                                                     7
Recommendation:

We recommend that the Office of Programs:

       8. establish a timeliness standard for the processing of transfer requests.

Management’s Response

The Office of Programs concurs with the recommendation and has agreed to
establish timeliness standards for transfer requests. The full text of
management’s response is provided as Attachment 1.


Segregation of Duties

Existing controls over transfer requests are not effective to ensure proper
segregation of duties. Our tests of transactions disclosed three instances where
the funds transfer requests were prepared and certified by the same individual.

Key duties and responsibilities need to be divided or segregated among different
people to reduce the risk of error or fraud. This should include separating
responsibilities for authorizing transactions, processing and recording them,
reviewing the transactions, and handling key related assets. No one individual
should control all key aspects of a transaction or event. 5

Agency procedure does not always address the need for separate preparers and
reviewers as provided in other funds transfer procedures.

Without proper segregation of duties, the possibility of error or fraud exists.

Recommendation:

We recommend that the Office of Programs:

       9. strengthen its internal controls to ensure proper segregation of duties.

Management’s Response

The Office of Programs disagrees with the auditor’s findings that one individual
controls all key aspects of a transaction and the possibility of fraud exists, but the
Office of Programs plans to review the current preparation and certification
practices for funds transfers, identify practices that will provide for adequate


5
     Standards for Internal Control in the Federal Government,” GAO/AIMD‐00‐21.3.1 (11/99) page 14. 


                                                     8
separation of duties, and update procedure as necessary. The full text of
management’s response is provided as Attachment 1.


Unauthorized Individuals Prepare and Certify Funds Transfer Requests

Internal controls are not sufficient to ensure that only properly authorized
individuals prepare and authorize funds transfer request forms. During our
review, we found many transfer requests that were prepared or certified by
individuals not officially designated to process these transactions per Office of
Programs’ procedure.

Transactions and other significant events should be authorized and executed
only by persons acting within the scope of their authority. This is the principal
means of assuring that only valid transactions to exchange, transfer, use, or
commit resources and other events are initiated or entered into. Authorizations
should be clearly communicated to managers and employees. 6

We were advised that due to the limited staff size in the Programs Support
Division, employees other than those designated to perform those functions are
permitted to prepare funds transfer requests.

The potential for error increases when staff performs job functions that they are
not officially authorized to perform or have not received proper training. The
potential for fraud increases when unauthorized staff is allowed to sign off on
documents that can potentially provide access to or legally obligate the assets of
the agency. Preparation of transfer requests by preparers and certifiers other
than those designated in Office of Programs procedure can give the impression
of impropriety.

Recommendation:

We recommend that the Office of Programs:

    10. strengthen its internal controls to ensure that only employees officially
        designated as having authority to prepare or certify funds transfer
        requests be allowed to perform this function.

Management’s Response

The Office of Programs concurs with the recommendation and will update
procedures to clarify which positions are authorized to perform this function. The
full text of management’s response is provided as Attachment 1.
6
  “Standards for Internal Control in the Federal Government,” GAO/AIMD‐00‐21.3.1 (11/99) pages 14 and 
15. 


                                                  9
Corrective Actions for Excess Medicare Premiums Payments and Medicare
Premium Refunds

The Office of Programs found that the RRB was not being reimbursed by CMS
for retroactive Medicare premium adjustments for funds previously issued from
RRA trust funds. They also found that excessive funds were transferred to CMS
due to overlapping Medicare premium totals being reported from two sources.
As a result of these issues and corrective actions taken by the RRB,
approximately $24 million was refunded to the RRA trust fund account from the
Medicare account.

Our review determined that the internal controls over the identification and
correction of the excess Medicare premium transfer amounts and Medicare
premiums refunded to the RRB were inadequate to ensure the completeness of
the corrective actions taken.

Although we were advised that an informal, undocumented review took place for
the financial data, we did not find evidence of a documented plan of controls,
procedures or approvals, a complete supervisory review and record of the review
and approval process, or reconciliation to confirm transfer amounts. 7

Internal Control and all transactions and other significant events need to be
clearly documented and the documentation should be readily available for
examination. The documentation should appear in management directives,
administrative policies, or operation manuals and may be in paper or electronic
form. All documentation and records should be properly managed and
maintained. In addition, control activities help to ensure that all transactions are
completely and accurately recorded. 8

Excess Medicare Premiums Payments

We found that the Office of Programs did not utilize confirmation reports of prior
transactions when identifying and calculating the excess Medicare premium
amounts to be transferred back to the RRB. Instead, the calculation of the
Medicare premium amounts to be transferred back to the RRB from CMS was
based on transfer requests prepared by the Office of Programs, but were not
noted as having been reconciled to confirmed transfer amounts. As a result,

7
   In conjunction with the OIG’s Auditor’s Reports for the RRB’s financial statements for fiscal years ended 
September 30, 2009 and 2008, the OIG reported a material weakness for internal controls over non‐
integrated sub‐systems because internal controls do not ensure the completeness of transactions 
originating in non‐integrated sub‐systems.  “Report on the Railroad Retirement Board’s FY 2009 Financial 
Statements”, OIG Report #10‐02, pages 102 and 103.  
8
   “Standards for Internal Control in the Federal Government,” GAO/AIMD‐00‐21.3.1 (11/99) page 15. 


                                                     10
there is no reasonable assurance that the calculated amount of the $15.7 million
in excessive premium payments refunded to the RRB during fiscal year 2009 is
complete or accurate.

Medicare Premium Refunds

We found no evidence of documented internal controls related to the process
and procedures that the Office of Programs applied regarding the identification
and calculation of Medicare premium refunds that were refunded back to the
RRB. There was no evidence of a plan of controls, an audit trial of the review
and approval process or a complete supervisory review. As a result, there is no
reasonable assurance of the completeness of the $8.7 million in Medicare
premium refunds reimbursed to the RRB during fiscal year 2009.

Recommendations:

We recommend that the Office of Programs:

   11. secure confirmation reports and test the accuracy of the calculation of the
       amount of funds transferred back to the RRB from CMS and take any
       necessary corrective actions, and
   12. conduct an independent study to determine the completeness of the
       identification and calculation of the amounts refunded from CMS.

Management’s Response

In regard to Recommendation No. 11, the Office of Programs disagrees with the
auditor’s finding that the process offered “no reasonable assurance” but they do
agree that securing confirmation reports as described in the report and
comparing them to the related transfer requests would have strengthened the
process and they plan to complete this test next month. The full text of
management’s response is provided as Attachment 1.

The Office of Programs disagrees with the OIG’s finding and rejects
Recommendation No. 12. The Office of Programs stated that they believe that
their management has adequate assurance that the amount reimbursed is
complete because a coordinated methodical approach was used to determine
the amount refunded. The Office of Programs also stated that the OIG did not
identify any errors related to the $24.5 million reimbursed to the RRB by CMS
and Recommendation No. 11, which they have agreed to implement, addresses
nearly two-thirds of that amount. The Office of Programs also stated that they
believe that their approach to identify these transactions provided reasonable
assurance that no material errors occurred during the process. Additionally, the
Office of Programs stated that they believe that their actions provided reasonable



                                        11
assurance in all regards and that no further action is necessary. The full text of
management’s response is provided as Attachment 1.

OIG’s Comments on Management’s Response

The OIG did not report any errors related to the $24.5 million because we did not
audit the calculation of this reimbursement. Our audit objective was to determine
the completeness of the controls used to identify and correct the Medicare
refunds and excessive premium payments. In their written response for this
recommendation, the Office of Programs states that their coordinated methodical
approach provides assurance that the amount reimbursed is complete. We
found that the Office of Programs’ methodical approach did not meet GAO
Standard of Internal Controls in the Federal Government. There was no
evidence of a documented plan of controls, procedures or approvals, a complete
supervisory review, an audit trail of the review and approval process, or
reconciliation to confirm transfer amounts.

Per the GAO Standards of Internal Controls in the Federal Government, control
activities occur at all levels and functions of the entity. They include a wide range
of diverse activities such as approvals, verifications, reconciliations, performance
reviews, maintenance of security, and the creation and maintenance of related
records which provide evidence of execution of these activities as well as
appropriate documentation. As previously stated, we stand by our position that
without these documented controls, there is no reasonable assurance of the
completeness for the $24.5 million reimbursement. An independent study would
be beneficial to determine the completeness and accuracy of the reimbursed
amount.


Documented Internal Controls

Our audit found that management control documentation for the Transfer of
Funds and RRA Benefit Payment assessable units does not provide agency
management with a reasonable standard of internal controls that is consistent
with the Government Accountability Office (GAO) Standards of Internal Control
for the Federal Government. This occurs because the documented objectives
and control techniques focus more on agency operations and less on internal
controls. For example, management control documentation for the Transfer of
Funds assessable unit does not address segregation of duties, proper execution
of transactions and events and the completeness of recording transactions.

The Management Control Review Committee is responsible for overseeing a
process to identify and eliminate management control weaknesses. The
committee is also responsible for ensuring the accuracy and completeness of
reports on management controls.



                                         12
The RRA Benefits Payment assessable unit is responsible for creating procedure
for the Transfer of Funds assessable unit. They are also responsible for various
agency systems that result in reports used as the basis for different types of
transfer requests. One of the objectives provided in their chart of controls is to
“ensure the accuracy of transfer of funds processes.”

Control activities include policies, procedures and mechanisms in place to help
ensure that agency objectives are met. Several examples include: proper
segregation of duties (separate personnel with authority to authorize a
transaction, process the transaction, and review the transaction); physical
controls over assets (limited access to inventories or equipment); proper
authorization; and appropriate documentation and access to that
documentation. 9

The risk of error or fraud increases without the development and implementation
of GAO internal control standards. Agency management could place too much
reliance on the incorrect control objectives and the incomplete control
techniques. In addition, control deficiencies could go undetected if the applicable
controls are not listed and tested.

Recommendations:

We recommend that the Office of Programs:

       13. work with the Management Control Review Committee to revise
           management control documentation for the Transfer of Funds and the
           RRA Benefit Payments assessable units to be consistent with GAO
           guidance for internal controls, and
       14. work with the Management Control Review Committee to revise the
           objectives and control techniques to accurately depict organizational
           responsibilities of the Transfer of Funds and RRA Benefit Payments
           assessable units.

Management’s Response

The Office of Programs concurs with the recommendations and plans to review
and update management control documentation for these assessable units. The
full text of management’s response is provided as Attachment 1.




9
     OMB Circular A‐123, Management’s Responsibility for Internal Control, Section II.C, page 8. 


                                                       13
                                                           ATTACHMENT 1
                        UNITED STATES                                              FORM G-1l5f (l~2)
                        GOVERNMENT                                 RAILROAD RETIREMENT BOARD

                       MEMORANDUM
                                                                   MAY "1 7 2010

TO:                 Diana Kruel
                  " Acting Assistant Inspector General for Audit


FROM:              Cathertne A.   Leyse~ tl J"'~
                                             «­
                   Director of Assessment and Training

THROUGH':          Dorothy   Isherwoofl)~
                   Director of Programs


SUBJECT:	          Draft Report -Internal Controls Over RRB·CMS Medicare
                   Premium- Transfers

Internal Controls Over RRB·CMS Medicare Premium Transfers


Overall	         The Office of Programs generally agrees with the Office of Inspector
Comments	        General's (DIG) recommendations to strengthen controls over the current
                 funds transfer process. We value their input to this process, which had just
                 undergone a period of transition and change that made it more vulnerable to
                 non-conformance and error.

                 However, we disagree with the OIG's conclusions concerning the recent
                 correction of past errors in the Medicare premium transfer process. The
                 Office of Programs identified those errors through an internal review process
                 and corrected them timely and accurately using proven methods. We believe
                 that we were fully effective in this area.


Recommendation   We recommend that the Office of Programs develop and implement controls
1                to ensure the completeness of the !ransfer requests delivered to BFO.


Office of        We concur. We will develop and implement the recommended controls by
Programs         September 30, 2010.
Response


Recommendation	 We recommend that the Office of Programs strengthen internal controls to
2               ensure that funds transfer confirmations are reconciled to the transfer
                 requests.




                                             14

                                                           ATTACHMENT 1

 Office of          We concur. We will strengthen controls to ensure that funds transfer
 Programs           confirmations are reconciled to the transfer requests by September 30,2010.
 Response'


 Recommendation	 We reco)11mend that the Office of Programs strengthen internal controls to
 3               ensure that agency procedure is followed for the preparation of the funds
                   transfer request forms.


 Office of	        We concur. We will strengthen controls to ensure that agency procedure is
 Programs          followed in the preparation of the funds transfer request forms by
 Response          September 30,2010.


 Recommendation    We recommend that the Office of Programs revise agency procedures to
 4                 require that source documents be attached and maintained as supporting
                   documentation for the funds transfer requests.


 Office of         We agree that source documents should be maintained in the Office of
 Programs          Programs as an attachment to the SF-10S1 to support certification of the
.Response          transfer request. We will revise our procedures as necessary by
                   September 30, 2010.


 Recommendation    We recommend that the Office of Programs strengthen the review process to
 5                 ensure the accuracy of the preparation of the funds transfer request forms.


 Office of	        We concur. We will strengthen the review process to better ensure the
 Programs          accuracy of funds transfer requests by September 30, 2010.
 Response


 Recommendation    We recommend that the Office of Programs lengthen the required retention
 6                 period for essential supporting reports.


 Office of	        We concur. We will review applicable records retention schedules and·
 Programs          determine what additional action may be necessary to ensure that essential
 Response          supporting reports are retained for an appropriate period. We will make this .
                   determinati9n by September 30, 2010.        .


 Recommendation    We recommend that the Office of Programs take corrective action for the
 7                 noted error cases.


. Office of       ·We concur. We are finalizing the correction process and expect to complete
  Programs         action on this recommendation
                                             .    by ~une
                                                     ..
                                                          30, 2010. .        .
  Response.


                                               15·
                                                              ATTACHMENT 1



'Recommendation    We recommend that the Office of Programs establish a timeHness standard;,
 8                 for the processing of transfer requests.


Office of          We concur. We will establish timeliness standards for transfer requests by
Programs           September 30, 2010.         '
Response


Recommendation     We recommend that the Office of Programs strengthen its internal coritrols to
9                  ensure proper segregation of duties.


Office of          Although we disagree with the auditor's findings that one individual controls
Programs           all key aspects of a transaction arid the possibility of fraud exists, we will
Response           review the current preparation and certification practices for funds transfers,
                   identify practices that will provide for adequate separation of duties, and
                   update procedure as necessary by ~eptember 30,2010.


Recommendation     We recommend that the Office of Programs strengthen its internal controls to
10                 ensure that only employees officially designated as having authority to
                   prepare or certify funds transfer requests be allowed to perform this function.


Office of          We concur. We will update procedures to clarify which positions are
Programs           authorized to perform this function by September 30, 2010.
Response


Recommendation     We recommend that the Office of Programs secure confirmation reports and
11                 test the accuracy of the calculation of the amount of funds transferred back to
                   the RRB from CMS and take any necessary corrective actions.


Office of          Although we disagree with auditor's 'finding that the process offered "no
Programs           reasonable assurance," we do agree that securing confirmation reports as
Response           described in the'report and comparing them to the related transfer requests
                   would have strengthened the process. We expect to complete this test by
                   June 30, 2010.


Recommendation      We recommend that the Office of Programs conduct an independent study to
12                  determine the completenes~ of the identification and calculation of the
                 , ,amounts refunded from CMS.




                                                16

                                                               ATTACHMENT 1


Office of        We disagree with the OIG's finding and reject the recommendation. We believe
Programs         that Office of Programs management has adequate assurance that the amount
Response         reimbursed is complete because a coordinated methodical approach was used
                 to determine the amount refunded. In addition, theOIG did not identify any
                 errors related to the $24.5 million reimbursed to theRRB by CMS and
                 recommendation #11, which we have agreed to implement, addresses nearly
                 two-thirds of that amount.

                 In July 2009, during a routine review of operational controls, the Office of
                 Programs observed that errors had occurred in the process for transferring
                 Medicare premiums to the Centers for Medicare and Medicaid Services (CMS).
                 Office of Program's acted immediately to identify the cause of these errors and
                 to recover monies due to the RRB's trust funds. Approximately $24.5 million due
                 tn'e RRB was identified using a methodical and well coordinated approach during
                 which we:	                                           ' .

                    •    identified the underlying cause of the fund transfer errors and the
                         timeframes during which errors occurred,
            /
                    •    reviewed applicable technical files and other relevant documentation;
                    •	   consulted with statistical, systems, and procedural experts;
                    •	   analyzed each problem area to determine the most effective approach;
                    •	   detailed an approach to each problem area based on availability of data;
                    •	   produced results based on the planned approaches;
                    •	   obtained senior Office of Programs management approval for the request
                         to CMS;
                    •	   briefed all levels of agency management, inclUding Board offices; and
                    •	   briefed CMS senior staff, responded to their questions and secured their
                         concurrence.

                The $24.5 million transferred to the RRB was fully supported by individual
                transactions documented in the agency's recordsJ The details of these
                transactions were shared with CMS at the time the funds were requested. We
                believe that our approach to identifying the~e transactions provided reasonable
                assurance that no material errors occurred during the process.

                    •	   The transactions supporting the $8.7 million in unreimbursed premium
                         refunds were identified by extract from automated systems of which more
                         than 70% required no manual intervention to determine their dollar value.
                    •	   Only a minority ($2.4 million) required additional manual efforts to
                         determine the dollar amount which effort was closely monitored.
                    •	   The balance of $15.7 million wa~ related to only 31 readily identifiable
                         transactions: one transaction per month during each of 31 months.
                         Although summarized manually, the number of months impacted is not in·
                         question and OIG recommendation #11 already addresses this
                         component of the refund•

                .We believe that our actions provided reasonable assurance in all regards and

                that no further action is necessary.





                                                17
                                                            ATTACHMENT 1



Recommendation	 We recommend that the Office of Programs work with the Management
13              Control Review· Committee to revise management control documentation for
                the Transfer of Funds and the RRA Benefit Payment assessable units to be
                consistent with GAO gUidance for internal controls.


Office of        We concur. We will review and update management control documentation
Programs         for these assessable units. We will work with MCRC to establish a target
Response·        date for completion of that process by September 30, 2010.
                                   . . 	                            \




Recommendation	 We recommend that the Office of Programs work with the Management
14	             Control Review Committee to revise the objectives and control techniques to
                accurately depict organizational responsibilities of the Transfer of Funds and
                the RRA Benefit Payment assessable units.


Office of        We concur. We will review and update management control documentation
Programs         for these assessable' units. We will work with MCRC to establish a target
Response         date for completion of that process by September 30, 2010.




cc:	           Director of Policy and Systems
               Director of Operations
             . Chief Financial Officer
               Management Control Review Committee




                                              18

